                                                           US OFFICE OF PERSONNEL MANAGEMENT
                                                               OFFICE OF THE INSPECTOR GENERAL
                                                                                OFFICE OF AUDITS




Fi~aJAuditReport
Subje-:.t:
   . . .. "




     ··.·TJlE .2006COIVIBINEIJF,EI1ERAL··CAMPA.IGN.
                   ....ACTfVITIE8.0F·THE
                         . EAJITHSl-IAREFED.ERATION
                                    BETH:ffiSDAMAR.YLAND
                                        '    '               .'   ."..                               .        .




                                             Rep~rt No. 3A-CF':OO-~8~038


                                                 Date:             October 29, 2008




                                                                  --CAUTION-­
This lludit report !las been distdbuted.to Federal oHiciills wbo arc responsible fo.r the lldminislralionof lhe audile!! program. This audit
reportma)'con taillpro prieta ry da ("whie h is II rolceted byfede raJ law (18 u.s. C. ] 905); therefore, wb ire. this a Lidi! report is ava ita ble
under th'eFreedoolofinronnation Act, cllutioll needs to be extrcised before releasiug the report to the general pliblic.
                            UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                                Washingtoll, DC 20415



  Office of the
Inspector General




                                               AUDIT REPORT



                            THE 2006 COMBINED FEDERAL CAMPAIGN

                                      ACTIVITIES OF THE

                                  EARTH SHARE FEDERATION

                                     BETHESDA,MARYLAND





                  Report No. 3A-CF-OO-08-038                              Da~:Qctober      29, 2009




                                                                         Michael R. Esser
                                                                         Assistant Inspector General
                                                                           for Audits
        www.opm.gov                                                                          www.usajobs.gov
                         UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                              Washington, DC 20415


  Office of the
Inspector General




                                      EXECUTIVE SUMMARY





                         THE 2006 COMBINED FEDERAL CAMPAIGN

                                   ACTIVITIES OF THE

                               EARTH SHARE FEDERATION

                                  BETHESDA,MARYLAND




               Report No. 3A-CF-OO-08-038                             Dah:October 29, 2008


       The Office of the Inspector General has completed a perfOlmance audit of the 2006 Combined
       Federal Campaign (CFe) activities of the Emih Share Federation. The primary objective of the
       audit was to detennine if the Earth Share Federation's eFe activities were in compliance with
       Title S, Code of Federal Regulations, Part 950 (5 CFR 950). The audit was conducted in
       Bethesda, Maryland from July 21 through July 25,2008.

       The audit showed that the 2006 eFC activities of the Earth Share Federation were administered
       in compliance with 5 CPR 950.




        www.opt11.gov                                                                      www.usajobs.gov
                            CONTENTS

                                                PAGE

       EXECUTIVE SUMMARY                    :   :        i


 1.    fNTRODUCTION AND BACKGROUND                       1


n.     OBJECTIVES, SCOPE, AND METHODOLOGY                3


Ill.   AUDIT RESULTS         ,                      :,   5


IV.    MAJOR CONTRIBUTORS TO THIS REPORT                 6

                     I. INTRODUCTION AND BACKGROUND

Introduction
                                                                           c                 ,




As authorized by the Inspector General Act of 1978, as amended, we conducted an audit of the
2006 Combined Federal Campaign (CFC) activities of the Earth Share Federation (Federation).
The audit field work was conducted at the Federation's headquarters in Bethesda, Maryland,
from July 21 through 25,2008. Additional audit work was completed at our Washington, D.C.
office.

Background

Executive Orders 12353 and 12404 and Public Law 100-202 established a system for
administering the annual charitable solicitation drive among Federal civilian and military
employees. Title 5 Code of Federal Regulations (CFR) 950, the regulations governing CFC
operations, set forth ground rules under which charitable organizations receive Federal employee
donations..

The CFC is the sole authorized fund-raising drive conducted at Federal installations throughout
the world. It consists of 278 local campaigns. The Office of Personnel Management (0 PM) has
the overall responsibility for managing the CFC. This includes publishing regulations and
providing guidance to Federal officials and private organizations to ensure that all campaign
objectives are achieved.                   '

The CFC organizational structure consists of a Local Federal Coordinating Committee (LFCC), a
Principle Combined Fund Organization (PCFO), federations, and the individual charities. The
LFCC is responsible for organizing the local CFC, determining eligibility of local charities,
supervising the activ,ities of the PCFO, and acting upon any problems relating to a local charity's
noncompliance with the policies and procedures of the CFC. The PCFO conducts the actual
campaign and collects the funds. The PCFO is responsible for training key workers and
volunteers, preparing pledge cards and brochures, distributing campaign materials, collecting and
distributing campaign contributions, and maintaining a detailed schedule of CFC administrative
expenses incurred during the campaign. Charities can either belong to a federation or they can
be unaffiliated.

National federations are responsible for administering applications for their membership, acting
as a fiscal agent for their members, and making sure that donor designations are honored.
Organizations are prohibited from using consultants in their CFC operations to perform policy­
making or decision-making functions. To participate in the CFC, a federation consents to allow
the Director ofOPM complete access to its CFC records, as well as its members' CFC records.
A federation must have 15 or more member charities that meet eligibility requirements contained
in 5 CFR 950.202 and 950.203. After obtaining status as a national federation, it must
re-establish eligibility each year and certify and/or demonstrate that its members meet all
eligibility requirements expressed in 5 CFR 950.301(e). The Director may elect to review and
accept or reject the national federation's eligibility certifications made on behalf of its members.
The Director may request additional information from the federation.
The previous audit of the Federation (Report No. 3A-CF-OO-OO-062, dated December 5, 2000),
covering campaign years 1997 and 1998, reported that the Federation complied with all
applicable laws and regulations.




                                             2

               II. OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

The purpose of the audit was to determine if the Federation's eFe activities during the 2006
campaign were in compliance with 5 eFR 950, the regulations goveming ere operations. The
specific audit objectives were to:

       Local Eligibility
          •	 Detennine the adequacy of the Federation's review of applications for
              membership in the Federation and the level of compliance with the regulations-.
              5 CFR 950.202, 203, and 301.

       Administrative Expenses'
         •	 Determine if the Federation has agreements in place with the member agencies
             concerning the amount of dues/fees/expenses to be charged.
         •	 Determine if the Federation charges its member agencies any additional
             dues/fees/expenses other than that prescribed by the agency agreement.
         •	 Verify that dues/fees/expenses are accurately reported and agree to the
             Federation's arumal report.

       Govemance Structure
          •	 Detennine compliance with 5 eFR 950.203 by reviewing the Federation's
             bylaws, board tenus/appointment dates/termination dates, board minutes, ethics
             policy, conflict of interest statements, and the most recent IRS 990 fonn.

       Distribution of Funds
          •	 Detennine if the Federation's procedures for processing and tracking receipts are
               reasonable.
          •	 Determine if the Federation's eFC disbursement policy is reasonable and that the
              initial distributions to member agencies were timely for the 2006 campaign.
          •	 Determine if the Federation's deposited amounts agree to the check amounts in
              the audited PCFO records.
          •	 Detel111ine if the Federation is maintaining CFe financial records and interest­
               bearing bank. accounts separate from the other internal organization records and
               bank accounts.
          •	 Detemline if checks disbursed to agencies agree with the amounts on rhe
               Federation's distribution list and that all checks were timely distributed in
              accordance with the regulations.

SCOlle and Methodology

We conducted this performance audit in accordance with generally accepted govenmlent
auditing standards. Those standards require that we plan and perfonn the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on the audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives.
The audit covered campaign year 2006. The Federation served as a national eFe federation
during this campaign. The Federation rep0l1ed that it received $4,258,670 for its member
agencies for the 2006 campaign.

The audit fieldwork was conducted in Bethesda, Maryland, from July 21 through 25,2008.
Additional audit work was completed at our Washington, D.C. office.

In conducting the audit, we relied to varying degrees on computer-generated data provided by
the Federation. Due to time constraints, we did not verify the reliability of the data generated by
the Federation's information system. However, in utilizing computer-generated data during our
audit testing, nothing came to our attention to cause us to doubt its reliability. We believe the
data was sufficient to achieve the audit objectives.

To accomplish the audit objectives, we performed the audit procedures listed below:

       •	 We reviewed the Federation's policies and procedures for receiving, recording, and
          distributing funds.
       •	 We reviewed documentation supporting campaign expenses, cash receipts, and cash
          disbursements.
       •	 We reviewed the Federation's member applications for inclusion in the CPC.
       •	 We interviewed the Federation officials.

We sampled documentation for review and testing on a judgmental basis. To test payments to
member agencies we used a judgmental sampling method to select 6 out of 57 Federation
member agencies from the 2006 campaign based on the highest dollar amount paid. Because the
sample was not statistically based, the results could not be projected to the universe taken as a
whole".

We considered the campaign's internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.
Our audit included such tests of the accounting records and such other auditing procedures as we
considered necessary under the circumstances to determine compliance with 5 CFR 950 and erc
memorandums.

The initial results of our audit were discussed with the Federation during an exit conference at
the end of our on-site work. We did not issue a draft report for review and comment since the
Federation's eFe activities "vere conducted in accordance with applicable regulations and aPM
guidance.




                                                 4

                                  III. AUDIT RESULTS


Based on our review of local eligibility, governance structure, administrative expenses, and
distribution of funds, we found that the Federation's 2006 CFC activities were administered,in .
accordance with Federal regulations 5 CFR 950 and applicable CFC memorandums.




                                                5

             IV. MAJOR CONTRIBUTORS TO THIS REPORT

Special Audits Group

                Auditor-In-Charge

               Auditor



                Group Chief

                   Senior Team Leader




                                        6

